                                                                                                                                I



                                                               NATIONAL
                                                                OFFICE OF SCIENCE
                                                                          INSPECTOR
                                                                                  FOUNDATION
                                                                                    GENERAL

          z                                                       OFFICE OF INVESTIGATIONS

    !@j$   4
              0
                          D
                                                          CLOSEOUT MEMORANDUM

         Case Number: A05100073                                                                            Page 1 of 1



                      An allegation was received' that a few lines of text in the subject's proposal2 followed the
                      abstract of a publication written by other authors in the same field. The overlapping sentences
                      describe the general precepts of a theoretical model in the field of research. The proposal
                      contains sectional references to several publications by some of the same authors as those of the
                  ,   alleged source document.

                      IVo other textual duplication was apparent in the target proposal. We examined other recent
                      proposals by the subject. None contained any evidence of plagiarism.

                      The small amount of apparent text duplication in the target proposal, its limitation to the central
                      tenets of a model (which is referenced to its originators), coupled with lack of any apparent text
                      duplication in other proposals by the subject, denies substance to the allegation.

                      Accordingly, this case is closed.

                                                                                                                            i




I




I




                      I
                              Redacted.
                              Redacted.
                      '       Redacted.




        NSF OlG Form 2 ( 1 1/02)
    -
r                                                                                                                  -
